<html>
<title> - BURNISON AND WHITE NOMINATIONS</title>
<body><pre>[Senate Hearing 115-497]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-497

                     BURNISON AND WHITE NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   TO

  CONSIDER THE NOMINATIONS OF MELISSA F. BURNISON TO BE AN ASSISTANT 
 SECRETARY OF ENERGY (CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS) AND 
ANNE MARIE WHITE TO BE AN ASSISTANT SECRETARY OF ENERGY (ENVIRONMENTAL 
                              MANAGEMENT)

                               __________

                            JANUARY 18, 2018

                               __________
                               
                               
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                               __________
                               
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
28-694                     WASHINGTON : 2019  

        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
  Brianne Miller, Senior Professional Staff Member and Energy Policy 
                                Advisor
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Burnison, Melissa F., nominated to be an Assistant Secretary of 
  Energy (Congressional and Intergovernmental Affairs)...........     6
White, Anne Marie, nominated to be an Assistant Secretary of 
  Energy (Environmental Management)..............................    11

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Burnison, Melissa F.:
    Opening Statement............................................     6
    Written Testimony............................................     9
    Responses to Questions for the Record........................    29
Cantwell, Hon. Maria:
    Opening Statement............................................     2
McConnell, Hon. Mitch:
    Statement for the Record.....................................     5
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
White, Anne Marie:
    Opening Statement............................................    11
    Written Testimony............................................    13
    Responses to Questions for the Record........................    35

 
                     BURNISON AND WHITE NOMINATIONS

                              ----------                              


                       THURSDAY, JANUARY 18, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:00 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, the Committee will come to 
order.
    We were able to welcome, the day before yesterday, our 
newest member to the Committee, Senator Smith from Minnesota, 
who has joined us. I mentioned at that time that Senator Capito 
would be returning to the Committee. So it is good to have you 
back with us working on energy issues. Welcome back.
    We are here today to consider two nominations for the 
Department of Energy: Anne White, to be the Assistant Secretary 
of Energy for Environmental Management, and Melissa Burnison, 
to be the Assistant Secretary of Energy for Congressional and 
Intergovernmental Affairs.
    Ms. White, the position that you have been nominated for is 
one of tremendous importance to many members of this Committee 
and to our nation as a whole. The Office of Environmental 
Management (EM) is responsible for the cleanup of the legacy 
wastes from our nation's nuclear weapons research and 
development program. The work being done at the remaining 16 
sites is often uniquely site-specific and requires a high 
amount of training and expertise to be conducted safely.
    As Assistant Secretary, it will be your job to ensure this 
work is undertaken in accordance with applicable safety 
requirements. At the same time, you will be responsible for 
ensuring the prudent use of taxpayer dollars by encouraging 
contractors to stay on schedule and within cost.
    We recognize that this is no small challenge, given that EM 
is perennially on the Government Accountability Office's ``high 
risk'' list. I look forward to hearing more on how you plan to 
correct some of the office's long-standing deficiencies.
    Ms. Burnison, ordinarily we would not even be conducting a 
hearing for your nomination. The Assistant Secretary for the 
Office of Congressional and Intergovernmental Affairs is a 
privileged nomination that, absent objection, goes straight on 
the Executive Calendar for Floor consideration after a 10-day 
waiting and review period. While we did receive an objection 
for your nomination, I would note here that it was unrelated to 
you or your qualifications for this role. I preferred to avoid 
this extra step and detour, but unfortunately that is not 
possible in what has been kind of a tough environment here in 
the Senate to confirm even the least controversial and most 
well-qualified nominees.
    So I thank you both for your willingness to serve our 
country. Given the positions that you hold, I do not think 
either one of you will be strangers to the members of this 
Committee. I ask for your commitment to work with us once you 
are confirmed.
    I will now turn to Senator Cantwell for any opening remarks 
that she may have.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    I congratulate both of the nominees on being nominated. Of 
all the Department of Energy's Presidential appointments, none 
is more important to my state than the Assistant Secretary for 
Environmental Management.
    The Office of Environmental Management is currently 
responsible for cleaning up 16 nuclear weapon sites in 11 
states, but none of these sites is larger, more complex, more 
expensive, or more challenging than the Hanford Site in the 
State of Washington. It is an enormous task and one which 
requires skill, experience, and dedicated leadership.
    So I am grateful to have had the chance to discuss with you 
many of these issues in my office, and I know that you 
understand the seriousness of this undertaking. If confirmed, 
you will need to improve the safety culture at the site, and 
ensure health and safety for our cleanup workers, in addition 
to making sure that we had adequate funding and keeping the 
cleanup effort on track to meet cleanup milestones, which the 
Department, I know, is committed to.
    Hanford is unlike any other environmental cleanup 
operation, you will find, in the country. It was the proving 
ground for nuclear production reactors and developed a 
successful plutonium extraction process. This has left a legacy 
of a complex mix of chemicals and radioactive materials, and we 
have continued to be challenged as we try to remediate this. It 
is not only the complexity of the waste at Hanford that is an 
issue, it is just the sheer volume.
    Our country depended on Hanford to be its nuclear weapons 
material workhorse. The Purex facility extracted over 60 
percent of our nation's plutonium to be later fabricated at the 
plutonium finishing plant and a final product to be inserted 
into our warheads. The mission has changed at Hanford, but the 
risks remain. The Purex facility is now empty, and the 
plutonium finishing plant is in the midst of continued 
demolition and operation production.
    Both these facilities have been in the news over the last 
year. The Purex facility had a tunnel collapse and it contained 
highly contaminated materials. The demolition of the plutonium 
finishing plant has been fraught with two major contamination 
events and the health and safety of Hanford workers.
    Our country owes a great debt to those men and women at 
Hanford who helped our country in time of great national 
security. We owe it to them to make sure we get the cleanup 
process right.
    That is why I want to make it clear to the Administration 
that we need a budget that doesn't shortchange Hanford. This 
year it was $100 million less than what we thought was 
acceptable. Luckily, the budget was not enacted, and I hope 
that this year has served as a valuable lesson to the 
Administration that appropriate funding for Hanford is very 
important moving forward. Obviously, a robust budget and 
determined individuals dedicated to protecting the environment 
and surrounding communities is a must. In addition to the 
critical mission, the Department's effort to complete the 
vitrification plan, as we discussed, will be a very big 
challenge. I hope we have the opportunity to continue to work 
together to make sure these issues are addressed in an 
aggressive way. I will get into some of the questions with you 
on the rest of the larger issues of moving waste once the 
facility is completed and vitrification logs are actually 
produced.
    The job of Assistant Secretary of Congressional Affairs is 
also important in maintaining a healthy working relationship 
between the Department and the Congress.
    Ms. Burnison will be the principle point of contact, and I 
am glad to see that you have had good experience working with 
both House and Senate colleagues at the House Natural Resources 
Committee and the Department in your various efforts. I 
congratulate you on your nomination this morning.
    Thank you.
    The Chairman. Thank you, Senator Cantwell.
    At this time, I would ask each of the nominees to stand, 
please.
    The rules of the Committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony.
    I would ask each of you--
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    I failed to ask that you raise your right hand.
    Let's do it again.
    [Laughter.]
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [Witnesses answer, I do.]
    The Chairman. Okay, now it is official.
    Please go ahead and be seated.
    Before you begin your statements, I will ask you three 
questions addressed to each nominee before this Committee.
    Will you be available to appear before the Committee and 
other Congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Ms. Burnison. Yes, I will.
    Ms. White. I will.
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Ms. Burnison. No.
    Ms. White. My investments----
    The Chairman. Ms. White, can you push the button there 
for----
    Ms. White. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I've taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearance thereof to my 
knowledge.
    The Chairman. Thank you.
    And are either of you involved or do you have assets held 
in blind trusts?
    Ms. Burnison. No, I do not.
    Ms. White. No.
    The Chairman. Okay.
    We will now begin.
    Ms. Burnison, we will start with you and I would note that 
the Majority Leader, Senator McConnell, has provided the 
Committee with an introduction of you. Apparently, you began 
your Congressional career in Senator McConnell's Senate office 
and clearly developed a passion for the work here and the 
institutions that we serve.
    I will be including, as part of the Committee record this 
morning, that statement from the Leader, himself.
    [The information referred to follows:]
    
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I just have to pause and note, it is kind of 
nice to have all women at the dais.
    [Laughter.]
    And to have two clearly qualified women who have been 
nominated for these very important positions this morning.
    Senator Barrasso. I want to----
    [Laughter.]
    The Chairman. Oh my God, look at that.
    [Laughter.]
    Senator Barrasso. I was watching on television back there.
    [Laughter.]
    The Chairman. We started to make you a little nervous, 
didn't we?
    [Laughter.]
    Good. We need to have this balance. Very important.
    I would ask that you limit your introduction, if you can, 
to about five minutes. Your full statements will be included as 
part of the record, and I invite you to introduce any family or 
those who are here to offer their support to you today.
    With that, Ms. Burnison, if you would care to begin please.
    Welcome to the Committee.

STATEMENT OF MELISSA F. BURNISON, NOMINATED TO BE AN ASSISTANT 
   SECRETARY OF ENERGY (CONGRESSIONAL AND INTERGOVERNMENTAL 
                            AFFAIRS)

    Ms. Burnison. Thank you.
    Chairman Murkowski, Ranking Member Cantwell and members of 
this Committee and to the professional staff of the Committee 
and also to the staff in each of the individual offices, it is 
a privilege and an honor to appear before you today as the 
President's nominee for Assistant Secretary, Department of 
Energy, Congressional Affairs and Intergovernmental Affairs. I 
am humbled by the recommendation Secretary Perry made to the 
President, and I want to especially thank the Secretary for 
placing his trust in me by nominating me today to appear before 
you.
    For those of you whom I have had the opportunity to meet 
with prior to this hearing, I want to thank you for your 
counsel. I also want to thank you for your expectations of this 
position and for providing me with your expectations of the 
Department. I look forward to working closely with you and with 
your staff throughout my tenure should I be confirmed.
    I also want to thank my husband, Scott Burnison, who is 
here with us today. It's also a special day for him. It is his 
birthday today as well. And he and I have three little girls 
who are very active and fill every moment of our lives. And 
we're very blessed to have them. So, Madam Chairwoman, with 
your permission, I'd like to introduce them to the Committee 
today.
    The Chairman. Please.
    Ms. Burnison. We have Catherine Burnison, Elizabeth, Scott, 
of course, and then Gudrun. So they are missing school today, 
but I understand Senator Barrasso might be handing out doctor's 
notes, so . . .
    [Laughter.]
    The Chairman. Well, we welcome them all to the Committee 
and happy birthday to your husband.
    Ms. Burnison. Thank you, thank you.
    Chairman Murkowski and members of the Committee, as I seek 
your approval for the appointment of this office, I would like 
to share a few thoughts about my experiences that I believe 
qualify me for this position.
    I have spent more than 15 years working in policy positions 
that involved the Department of Energy in some capacity. Most 
of that experience came from Capitol Hill as a Congressional 
staffer, myself, working in the energy policy arena. And thanks 
to that experience, I have the utmost respect for the work, the 
traditions and the people who make up this body.
    I also have spent two years working at the Department of 
Energy. That service enabled me to witness how dedicated the 
men and women are who support the Department's critical 
missions.
    Should I be confirmed, I will draw upon my previous 
experience on the Hill, in the Department and in the private 
sector to ensure interactions with the Department's Office of 
Congressional and Intergovernmental Affairs are guided by 
respect, integrity and clear communication.
    While on the Hill, I spent seven years working for 
Congressman Zach Wamp from Tennessee, who passionately 
represented Oak Ridge National Lab, the Y-12 National Security 
Complex, various cleanup missions throughout the site, the 
Tennessee Valley Authority and many other Department of Energy 
assets in the state. And I would note that Tennessee is unique 
in that it plays a role in just about all of the Department's 
programs and missions in some form or fashion.
    It was home to the Manhattan Project, Clinton Engineering 
Works which was established even before the creation of the 
Atomic Energy Commission, the precursor to the Department of 
Energy. And it was in working with the people and the site at 
the foothills of the Appalachian Mountains that I gained an 
immense appreciation for the accomplishments of the greatest 
generation. It was those men and women whose determination and 
sacrifices built the DOE complex that exists today and 
continues to make our country great.
    Having learned the history of the DOE communities and then 
seeing firsthand the incredible developments in science, 
nuclear technology and even supercomputing at those sites makes 
me proud to, once again, have the opportunity to serve, should 
I be confirmed.
    With regard to the functions of the office I seek, I commit 
to being a responsive, timely and an open communicator. We will 
be as prompt as possible in my office, keeping you apprised of 
Departmental activities and be attentive to the priorities as 
you provided them to me.
    I also understand the importance of considering the impact 
of federal actions on labs, sites and the surrounding 
communities. I appreciate that each of the local governments, 
states and tribes have a unique relationship with its site. 
Communicating frequently with and listening to those concerns 
and recommendations of those leaders and governments build 
trusting relationships that not only serve the Department but 
you as well.
    I will pledge to do my best to live up to the standards 
expected of those who hold public office. I thank you for the 
opportunity to appear before you today, and I look forward to 
taking your questions.
    [The prepared statement of Ms. Burnison follows:] 
    
    GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. Burnison, and again, welcome 
to your family.
    Ms. White, we would appreciate your statement and, again, 
if you would like to introduce anyone who has joined you here 
today, but welcome before the Committee.

  STATEMENT OF ANNE MARIE WHITE, NOMINATED TO BE AN ASSISTANT 
         SECRETARY OF ENERGY (ENVIRONMENTAL MANAGEMENT)

    Ms. White. Thank you.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, and Professional Committee Staff, thank you for the 
opportunity to appear before you as the President's nominee to 
be the Assistant Secretary of Energy for Environmental 
Management at the Department of Energy.
    My warmest thanks to you and your staff for taking the time 
to share the issues of concern regarding environmental 
management and for outlining your expectations of me in the 
role of EM-1, a role that involves fulfilling our moral 
obligation to clean up the nation's environmental legacy 
challenges from World War II and the Cold War.
    I am honored to appear before this Committee and give my 
thanks to President Trump and Secretary Perry for the 
confidence they have placed in me with this nomination. If I am 
honored with a confirmation by the United States Senate, I will 
look forward to working together with you and your staff to 
resolve the challenging issues that confront the nation in the 
areas of risk reduction and environmental cleanup from the 
nuclear weapons production program.
    I'd like to introduce my family to the Committee. Here 
today with me is my father, Mike White, who began teaching me 
high school math in about second grade, and my mom, Donna 
White, who taught me the value of hard work and persistence. 
Thanks for all you've done.
    Also here are my sisters, Sara Hall, and her daughter, 
Hannah, my sister, Katy White, with my niece, Emily, and my 
nephew, Sam. A group of close friends are also here and have 
joined me here today. Without the support of my family, friends 
and colleagues, I would not be here today and I thank them all 
for their support.
    My Master's Degree is in nuclear engineering, and I was 
fortunate enough to graduate at a time when the environmental 
restoration field was relatively new. With my interest in the 
nuclear field and appreciation for our environment, I 
determined that environmental cleanup work was a natural fit 
for me.
    I began my career performing physical cleanup work. My 
strategy was to learn the environmental cleanup business in the 
most basic way, which has been instrumental in understanding 
the challenges and opportunities facing the Department today 
and into the future.
    That experience was informative and provided a sound basis 
to help form my consulting firm in 1995. Since founding my 
firm, my years working within the commercial and government 
nuclear industry and the mentoring from well-respected industry 
experts have helped me grow into an experienced leader and 
innovative problem solver.
    Over the past 25 years, I have consulted with commercial, 
government and international organizations solving complex 
problems here at home and in a number of foreign countries. I 
have worked at a number of DOE-EM sites, providing me with an 
appreciation for the complex technical and stakeholder issues 
the Department faces in the cleanup of its legacy EM 
facilities.
    Additionally, over the course of my career, I have been 
able to work on, visit and understand some of the world's great 
nuclear and environmental challenges. Therefore, I consider 
this potential key leadership position at DOE-EM to be an 
opportunity to maximize my private sector experience and 
knowledge to assist the Department in moving forward to 
mitigate risk and work toward eliminating existing liabilities.
    Through the years I have had the good fortune to work and 
collaborate with a wonderful group of smart, technically savvy 
peers to solve complex problems through innovation, creativity 
and optimization. This work is not without some level of risk. 
The women and men in the field implementing plans and 
delivering projects are of primary importance in the cleanup 
mission. Without these individuals in the field, dressing out 
in protective gear and doing difficult physical work, there 
would be no cleanup and no risk reduction.
    Maintaining and further building trust with the workforce 
that we rely on to clean up our nation's legacy environmental 
challenges will be a focus throughout my tenure, should I be 
confirmed.
    Should I be confirmed, I commit to you that I will work 
with this Committee, the conscientious staff within the 
Department and various stakeholders including Congress, Native 
American tribes, regulators, local communities and the 
dedicated workforce at each of the 16 sites for which EM has 
responsibility. My goal will be to enhance safety through risk 
mitigation and cleanup and eliminate overall taxpayer liability 
for legacy environmental issues.
    Chairman Murkowski, Ranking Member Cantwell and members of 
the Committee, thank you again for this opportunity to appear 
before you as the President's nominee for Assistant Secretary 
in the Department of Energy.
    Thank you for your time today. I look forward to answering 
your questions as you consider my nomination.
    [The prepared statement of Ms. White follows:]
    
    GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Ms. White, and welcome to your 
friends and to your family as well. We appreciate that.
    I will start with a round of questions here.
    Ms. Burnison, to you, first.
    We are going to refer to you as our Congressional Liaison 
and that is a role that has varying levels of responsibility, 
but we recognize that you will also be responsible for 
coordinating the Department's efforts with state, local and 
tribal governments. I know that you are not going to be the 
only one, but you are going to be an important figure in that.
    Can you tell us how you plan to approach each of these and 
how you will prioritize coordination with tribal governments?
    Ms. Burnison. So, Senator Murkowski, as I stated earlier in 
my testimony, I appreciate the unique relationship that each 
site has with its local community and states and its tribes. 
And I suspect that nowhere is that more true than in the State 
of Alaska with the Native Alaskan lands.
    So, I, for example, as I understand it, there are 
challenges with high energy costs, for example with the Native 
Alaskans and my plan would be to look to rely on the Office of 
Indian Energy and those folks who have a history and an 
experience with working with these communities and with the 
tribes.
    And I also think it's important to make sure that, as you 
stated, the intergovernmental side receives as much attention 
as the Congressional side. I know from my own personal 
experience, if we had a Tennessee Commissioner or local leader 
who was unhappy or frustrated in their interactions with the 
Department, we got a phone call from the Congressional Office 
or in the Senate office and that usually resulted in a phone 
call to the Department of Energy.
    That is certainly an option and a route to take, but I 
would hope that we--and I could bring to the position and the 
Department would be able to engage with those leaders more 
effectively on the front end so we could build credibility and 
trust with those folks.
    The Chairman. Well, I appreciate that, and I will look 
forward to working with you on some of these.
    We have had some frustration within the Office of Indian 
Energy not only getting attention to certain issues but really 
getting sufficient help for those that are certainly in need of 
it. So I put that on your radar screen.
    Ms. White, I mentioned in my opening about the GAO high-
risk list and the fact that EM has been on this list for a 
number of years.
    According to GAO, the Office, and I am going to quote here, 
``has struggled to ensure that they have the capacity, both 
people and resources, to mitigate risks. They have also 
demonstrated limited progress in contract management, 
particularly financial management and have struggled to stay 
within cost and schedule estimates for some major projects.'' 
So that is from the GAO. What actions will you take to address 
these concerns and move EM off of this high-risk list?
    Ms. White. Thank you for that question. It's an important 
one.
    What I intend to do is first, always ensure a safe work 
environment. And I view safety as a three-legged stool 
involving production, cost and safety. All three must be 
present and in relatively equal measure in order for projects 
to be successful.
    Also, our decision-making, it needs to be timely. It needs 
to be technically based and it needs to understand the very 
long timelines involved with our cleanup mission.
    Finally, we, when EM-1 makes a commitment or has a 
milestone, we need to treat them not as options or aspirations 
but real commitments that we must live up to.
    We can also make some improvements, I believe, in the way 
we contract work and manage our contractors.
    The Chairman. Well, I know that this is a question others 
will have so I will yield back my time right now and turn to 
Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Again, congratulations on your nomination, Ms. White. There 
are many issues to talk about at Hanford, so sorry if I try to 
get in this round just because I have to go over to Commerce 
for several votes on nominees over there. But hopefully I will 
be back.
    So, quickly, do you believe that the Department of Energy 
has to meet the milestones of the tri-party agreement on 
cleaning up tank waste and not to come up with a new idea of 
how to reduce that responsibility but how to live up to that 
responsibility?
    Ms. White. We have a moral and legal obligation to live up 
to the commitments made in our agreements.
    Senator Cantwell. Great.
    Secondly, obviously, there have been several incidents 
lately. In May, a tunnel adjacent to the plutonium uranium 
extraction plant collapsed; in June, a radiological release 
from the plutonium finishing plant resulting in 30 workers 
testing positive for contamination.
    Will you commit to work with the local labor organizations, 
the Department, and the Hanford contractors to make sure that 
we have a safe environment including these options of air tanks 
that give workers more certainty on vapor issues?
    Ms. White. So, the nuclear safety culture is, of course, 
extremely important in the work we do. As the one who has been 
to the field and done the work, I've benefited from that safety 
culture.
    In particular, the respiratory protection, you mentioned, 
as with any other safety device, there's pluses and minuses. 
But should I be confirmed, I'd be happy to work with the 
unions, with the workers, with your staff, to determine the 
appropriate measures to take to be sure----
    Senator Cantwell. Thank you.
    I did like in our brief discussion that you said you liked 
to use innovation to solve some of these problems and I would 
say the challenge becomes when you have workers at one end of 
the cleanup site, using this equipment, and then being denied 
if in another area, it raises questions.
    And yes, you are right, the complexity of how to do the 
cleanup and the level of how to get that done safely is a big 
question. So thank you for that.
    And then, thirdly, obviously the finishing plant and our 
production of vitrified logs, one of the recommendations that 
this Committee received in the past was to separate out defense 
waste as a way to get at a faster path to resolving that issue. 
As we try to meet the milestones for that, what do you think of 
the idea of separating the defense from commercial waste as a 
way to give it more certainty and a clearer path in a shorter 
time period?
    Ms. White. With the current situation, with the pathway for 
this type of waste, I think that a defense only solution is 
definitely worth looking into. I haven't fully studied the 
issue, but if confirmed I would look forward to working with 
you on that issue because I think it's an option worth 
evaluating.
    Senator Cantwell. Did you see anything wrong with what the 
Commission that our former Chair, Senator Domenici was part of 
and their recommendations of that and the past Administration's 
efforts to move forward on that?
    Ms. White. So, I have not seen or I have not carefully 
studied the report recently. I did, closer to the time it was 
issued.
    So I believe that a defense-only repository is definitely 
an option that we need to consider as we look at various ways 
in which we could execute our cleanup mission at Hanford and 
other sites as well.
    Senator Cantwell. And what did you say in my office? You 
thought one of the big objectives was to have waste moving out 
of Hanford?
    Ms. White. Oh, absolutely, yes. And I think there's various 
and sundry ways to do that, including the defense waste 
repository.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Capito.
    Senator Capito. Thank you, Madam Chair. It is great to be 
back on the Committee with you----
    The Chairman. Wonderful to have you.
    Senator Capito. ----and the Ranking Member, so thank you 
for that.
    Thank both of you for your willingness to serve in the 
public interest, and I know you are taking time from your 
families to pursue this and we certainly are very appreciative.
    Ms. Burnison, I am going to start with you because we 
talked about this in my office yesterday, but I wanted to 
reinforce it and I see I have my colleague, Senator Manchin, 
here as well. This is something that is extremely important to 
greater Appalachia, but certainly West Virginia as a state, and 
that that is an energy infrastructure package which is called 
the Appalachian Natural Gas Storage Hub. It is an ethane 
storage hub project. It is regional in nature.
    I hosted Secretary Perry in West Virginia in July. He is 
very excited about this in terms of a regional ethane storage 
because the market is there, also for security reasons I stated 
that during Hurricane Harvey the ethane storage facility in 
Texas had to shut down for a month. So having an alternative 
site that doesn't necessarily compete but enhances our ability 
to have the redundancy, I think, is something that he certainly 
could see.
    Since that visit we have had greater interest from industry 
stakeholders, upstream, midstream and downstream and the 
advancement of an application from the Appalachian Development 
Group, which is the folks working on this, to phase two of the 
Title 17 loan program.
    We also have in place a Memorandum of Understanding from 
China Energy which outlines that $83.7 billion investment in 
West Virginia, centered around the developments of the 
Marcellus shale. The National Energy Technology Lab in 
Morgantown, the Office of Fossil Energy and the Department of 
Energy, in general, are key stakeholders in this initiative. It 
is really a once-in-a-lifetime opportunity for us to transform 
a region that needs, not just economic development, but I think 
what we need more than anything, since it is our resource, in 
our respective states, we want to capitalize on that and see 
the benefits and economic benefits and job growth that are 
projected which are enormous, stay in our region.
    So I guess I am asking you to pledge to work with me and my 
staff and our constituents to continue to advance development 
of this Appalachian Natural Gas Liquid Storage Hub.
    Ms. Burnison. Thank you, Senator Capito.
    And you did emphasize to me and impress upon me an 
importance of that issue in your region. And I do appreciate 
the economic driver that many of these developments bring to 
these regions.
    And you have my commitment and my pledge to work with you 
and your staff on this important issue going forward.
    Senator Capito. Thank you very much.
    Ms. White, I would like to thank you as well for throwing 
your hat in the ring here. I do chair the Clean Air and Nuclear 
Safety Subcommittee over at EPW, and I oversee the Nuclear 
Regulatory Commission and its regulatory programs over the 
civilian nuclear fleet.
    While that is a totally distinct agency, with its own 
jurisdiction, I do believe the challenges are very similar when 
you are looking at nuclear waste, the decommissioning process 
and environmental regulations, excuse me, the environmental 
remediation such as the Office of Environmental Management 
does. I think if we don't get a handle on a long-term nuclear 
waste storage solution, the waste currently stored at civilian 
sites may become a fully federal remediation effort.
    Do you see an opportunity here to, sort of, break down 
those silos between the NRC and the Office of Environmental 
Management to get to best practices, to get quicker and better 
results and a more timely and probably, fiscally efficient 
manner?
    Ms. White. Absolutely, I think that there are many lessons 
to be learned across the nuclear industry, within DOE, and 
there's opportunities for cross pollination between the efforts 
at DOE which have done a great deal of decommissioning and 
demolition and the private sector which is getting ready to do 
a great deal of decommissioning and demolition of commercial 
nuclear plants. So I see a lot of opportunities for 
collaboration and lessons learned.
    Senator Capito. In your work in the private sector, did you 
work with both of these--the Office of Environmental Management 
and the NRC? Have you worked with both of those----
    Ms. White. I have worked with the NRC less than I have 
within the DOE environment, but yes, I've had some work that 
involved the NRC.
    Senator Capito. Okay.
    I yield back. Thank you very much.
    Ms. White. Thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you.
    Welcome to both of you. I so appreciate your willingness to 
serve.
    I've got five minutes, and I am going to try to run through 
these real quick and then I am going to leave because I have 
two other hearings to get to. So, I apologize for not staying.
    But Ms. Burnison, let me start with you, and also, welcome 
to your incredible family and friends. It was great to see all 
the smiles out there this morning.
    While working at NEI, what was your role in crafting 
legislative initiatives and your engagement with stakeholders 
on Capitol Hill in support of Yucca Mountain?
    Ms. Burnison. Thank you, Senator, for that question.
    As I think many of us know, the nuclear industry has always 
engaged with legislative and federal policies that address the 
solutions to finding for spent nuclear fuel.
    And so, during my tenure there, of course, I engaged in 
those activities as well in educating Congress and the Senate 
on the impacts of not having a solution to spent nuclear fuel.
    Senator Cortez Masto. Did you advocate for and in support 
of transporting high-level nuclear waste and spent fuel to 
Yucca Mountain?
    Ms. Burnison. Senator, I did provide Congress with the 
industry's perspective on those impacts.
    Senator Cortez Masto. And that industry perspective was to 
support transport of that waste to Yucca Mountain, correct?
    Ms. Burnison. Yes, ma'am.
    Senator Cortez Masto. Okay.
    And during your time at DOE were you in any way involved 
with DOE policy on the proposed Yucca Mountain repository in 
Nevada?
    Ms. Burnison. No, ma'am. I was not.
    Senator Cortez Masto. What position do you think the 
Administration should take on consent-based siting?
    Ms. Burnison. Well, thank you, Senator, for that question.
    I appreciate the importance of having, as I stated earlier, 
state and community input in the process and I appreciate that 
the Nuclear Waste Policy Act has set out a process for that and 
I appreciate that it's an important issue. And I want to work 
with you and your office and look forward to having those 
conversations.
    Senator Cortez Masto. Do you believe local governments and 
key stakeholders and Indian tribes should have a say in whether 
waste is going to be located in their state or not?
    Ms. Burnison. I do.
    Senator Cortez Masto. Do you think that should take 
precedence over whatever policy is set at the federal level?
    Ms. Burnison. Well, Senator, I'm certainly not an expert in 
some of the other policies or precedents that may also take 
precedent, but I do believe that the Department of Energy has 
always and I think as we've stated here in this Committee 
before, held out safety as its number one goal, community 
input, but also that the Department's obligation is to follow 
the law.
    Senator Cortez Masto. And if you believe that safety should 
take precedence as well, do you believe that safety and the 
sound science if science educates it is not secure and safe to 
be stored in a certain location that that should take 
precedence?
    Ms. Burnison. Senator, I do believe that sound science 
should be a factor in that determination but again, the Nuclear 
Waste Policy Act has laid out a process by which to determine 
that and NRC will ultimately have, I think, a decision in that, 
making that determination.
    Senator Cortez Masto. Thank you.
    Ms. Burnison. Thank you.
    Senator Cortez Masto. I appreciate your answers today.
    Ms. White, in 2013 the Department of Energy attempted to 
move and store 400 canisters of waste from the Oak Ridge 
National Lab in Tennessee to our Nevada National Security Site 
which I know you know well.
    We felt, the Governor, many of us, including some of our 
Congressional delegates, that they were exploiting a regulatory 
loophole to classify that waste as low level hazard so that 
they can bury it in shallow graves there when in actuality it 
was and should have been handled as high level, radioactive 
waste.
    So my question to you is how much consideration should be 
given to concerns of the local community in the work that you 
do?
    Ms. White. The local communities are extremely important to 
the work we do and gaining their support is extremely important 
to the work we do.
    We need to be transparent in our communications with them, 
start engagement early. If there's problems or issues we 
encounter, again, early communication, public outreach, these 
are all very important things, we don't--we've learned through 
a lot of hard knocks, if you will, that without the support of 
the public your projects are not cost effective. They can't get 
done.
    Senator Cortez Masto. So, can I get a commitment from you 
in situations like that that you would be willing to come into 
Nevada and address the concerns of our local affected 
governments, as well as Indian tribes when we have concerns 
about the operation that you are engaging in at the test site?
    Ms. White. Yes, if confirmed, I'm always willing and very 
eager to speak with the public, the stakeholders, your office, 
this Committee.
    Senator Cortez Masto. Thank you.
    I noticed my time is up. The rest of the questions I will 
submit for the record.
    Thank you very much.
    Ms. White. Thank you.
    The Chairman. Thank you, Senator.
    Let's turn to Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    As you and I have discussed in the past, the uranium 
industry is facing extraordinary tough times. Last year, the 
American uranium industry produced the lowest amount of uranium 
since the early 1950s.
    My home State of Wyoming is the country's number one 
uranium-producing state, and when prices are low, the hard-
working people of Wyoming are hit the hardest.
    American uranium producers face unfair trade practices from 
government-owned producers in Russia, Kazakhstan and 
Uzbekistan. They also have to compete with the Department of 
Energy.
    For over a decade, the Department has bartered the public's 
excess uranium in exchange for decommissioning and other 
services. During that time, employment in the United States 
among uranium producers has dropped by over 50 percent.
    Ms. White, the uranium industry is facing extraordinarily 
tough times. When we take a look at this, when I look at this 
whole barter system that has come out of the Department of 
Energy, the barters have driven down uranium prices and shut 
down uranium production in Wyoming and in other Western states. 
The Government Accountability Office has found that these 
barters are illegal, and I have fought these barters for years, 
long before you were nominated for this position.
    I appreciate you taking the time to discuss the issue with 
me in my office yesterday, but you are unable to give me a firm 
commitment to immediately halt these barters, something that 
Secretary Perry has told me that he wants to do. It is 
something he wants to accomplish. So for this reason, I am 
unable to support a confirmation at this time and would hold 
the confirmation until the Department ends its practice of 
bartering excess uranium.
    I think it is preserving good-paying uranium jobs and 
uranium security in America, in Wyoming. Other states depend on 
these from the jobs, and we would do as well from a national 
security standpoint.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso, I appreciate the 
issues that you have raised and hopefully we will be able to 
work through these issues.
    Let's go to Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Ms. White, thanks for the time you made to sit with me 
yesterday. I am going to return to the issue which we 
discussed.
    As you know the Waste Isolation Pilot Plant (WIPP) in 
Carlsbad, New Mexico, is literally the nation's only operating, 
underground repository for defense, transuranic waste. The 
continued safe operation of WIPP is critical to nearly all of 
DOE's future cleanup efforts.
    I just want to ask you at this point, how familiar you are 
with WIPP and, if you are confirmed, will you make it a 
priority to visit WIPP and to sit down with the local community 
and the staff and leadership there to continue making sure that 
Carlsbad can play an active role in ensuring safe operation at 
that facility?
    Ms. White. Thanks for that question and WIPP is, as you 
mention, a very important asset to the Department's work in our 
efforts to complete cleanup at our various sites.
    I would love to come visit WIPP. It's an interesting 
facility, I've been curious about it, and speak with your 
stakeholders and probably have a little green chili too.
    Senator Heinrich. Excellent. I appreciate both of those 
sentiments.
    As we talked about yesterday I was really pleased to learn 
that you spent a good part of your career in environmental 
management work at Los Alamos. Last month, DOE awarded a new 
contract to manage cleanup at the lab and one very important 
requirement of the new contractor is a mandatory set-aside for 
small business subcontracting. That is incredibly important for 
creating the, sort of, local ecosystem that supports the lab, 
especially in a remote location like Los Alamos. A second 
requires the contractor to have a plan for direct involvement 
and active participation in the local community.
    I think that maintaining good relations with the community, 
with tribal leaders, the local businesses, are all vital to the 
success of the labs.
    If you are confirmed, will you hold the new contractor 
accountable for complying with both the small business and the 
community commitment requirements of the contract?
    Ms. White. I would, absolutely.
    Having been a small business owner in Los Alamos myself, 
I'm very supportive of small business in those community 
outreach efforts.
    Senator Heinrich. Oh, we are thrilled with your background 
with regard to this, because it is very helpful to have that 
direct experience.
    Back to WIPP for just a minute. For a number of years I 
have certainly been concerned about the failure to properly 
maintain the basic infrastructure at WIPP to ensure that the 
facility can continue to be operated safely.
    WIPP is currently reporting a total maintenance backlog of 
about $25 million for critical upgrades to key fire safety 
systems, instrumentation and infrastructure. And as you know, 
we experienced an accident at WIPP a couple years ago that 
literally ground to a halt all disposal activities. The 
President's budget for the current fiscal year was 
substantially below what WIPP needs for maintenance. If you are 
confirmed, would you commit to take a close look at the budget 
request for WIPP and to ensure that the current maintenance 
backlog is addressed as quickly as possible?
    Ms. White. If confirmed I will have a close look at the 
budget, because I do understand the importance of that asset to 
carrying out our mission. I'd be happy to look at it and work 
with your staff.
    Senator Heinrich. I look forward to working with you.
    Thanks.
    Ms. White. Thank you.
    The Chairman. Thank you, Senator Heinrich.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thanks to both 
of you for your willingness to serve and your commitment to 
public service and thanks to your families as well for that 
commitment.
    Ms. White, obviously, if you come to Colorado we will treat 
you to some Pueblo chilis, so we are happy to do that to make 
sure you get--I was giving him a hard time. Martin, Senator 
Heinrich, I invited them to come to Colorado for Pueblo chili, 
so we can have that competition.
    Senator Heinrich. You have chili in Colorado?
    [Laughter.]
    Senator Gardner. So, anyway, the Rocky Flats site, 
obviously, has a very important legacy with the Department of 
Energy, and I think in the early 1990s it was estimated that it 
would take 65 years at $37 billion to clean up the Rocky Flats 
site. But by 2005, it was done at a cost of about $7 billion 
and now is a legacy management site and wildlife refuge.
    So, obviously, important work in many other sites in 
Colorado Department of Energy has been a part of and the 
cleanups that were handled by Environmental Management as well 
as now, within legacy management. Thank you for that. I think 
it can provide a model of what we can be doing around the 
country.
    Ms. Burnison, thank you very much for the time in the 
office to have a conversation about your goals and how you see 
the relationship with the Department of Energy and Congress and 
how we can work together.
    We spent a lot of time talking about NREL. NREL, the 
National Renewable Energy Laboratory, a primary national 
laboratory focused on advancing science and engineering of 
renewable power and energy efficiency, something I am very 
interested in and Colorado is very interested in.
    Also focusing on grid modernization, cybersecurity issues, 
advanced transportation systems, they are really pioneering in 
those fields, impact of NREL's nearly $1 billion annually, 
nationwide, and 750 technology partnerships across the country, 
academia and government with small businesses making up about 
25 percent of those 750 technology partnerships.
    I think what we have seen is for every $1.00 of investment 
at NREL results in about $5.00 in private sector investments 
that continually work to improve the economy, create jobs and 
new companies and spin-offs and that commercial transfer has 
been incredible at the National Renewable Energy Laboratory.
    I would just like your commitment that you will continue to 
work with me and my colleagues in the Senate to make sure the 
investment in NREL continues, that it produces the jobs coming 
along with that investment and that we protect those 
opportunities that NREL has to further advance our country.
    Ms. Burnison. Of course, Senator.
    And I would just state that I have a soft place in my heart 
for the labs, in particular, and I appreciate that they are the 
jewels of the Department.
    Senator Gardner. Thank you very much.
    Ms. Burnison. I look forward to working with you.
    Senator Gardner. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Gardner.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chair, and thank both of 
you all for your willingness to serve. It is hard to recruit 
good people to be involved in public service today. I 
appreciate it.
    Ms. Burnison, you may be familiar with a carbon project in 
Texas called Petra Nova.
    Ms. Burnison. Sir, somewhat.
    Senator Manchin. Okay.
    Petra Nova was developed by a private company but it was 
successful, in part, because of the federal cost sharing with 
the DOE. Following the success of Petra Nova I was disappointed 
to see that the GAO, Government Accountability Office, 
determined that the DOE impounded funds Congress appropriated 
for the Advanced Research Projects Agency, and we will call 
this ARPA-E, for energy, okay?
    We learned this last December when GAO sent a letter to 
Congressional committees outlying their findings and, as you 
might know, the Administration proposed the elimination of 
ARPA-E that would prevent us from having this public-private 
type of relationship. I think they believe that they are 
convinced the private sector is going to step in and finance 
some of these projects by themselves. We have not found that to 
be the case. The fact of the matter is the Loan Program Office 
in ARPA-E has been successful and they still are successful, 
important programs. That is going to be necessary to solving 
our nation's energy problems.
    I don't know how familiar you are with that. That may run a 
little bit in controversy to where the Administration, or some 
within the Administration, thought everything should go 
absolutely, 100 percent, private. We can't find these projects 
and finally be successful unless there is investment, and the 
DOE has always been a good partner to work with.
    I would just like to hear your thoughts or comments on 
that.
    Ms. Burnison. So, thank you, Senator Manchin.
    I've not been briefed on the details of that particular 
situation. I understand, however, the issue that you raised and 
that it's important to you.
    And so, in my role----
    Senator Manchin. It is important to the country, with all 
due respect, because you are not going to find, I mean, there 
is still going to be, in my state, we produce an awful lot of 
fossil which is coal, natural gas.
    I will reiterate what Senator Capito said about the storage 
hub. It is extremely important, not just for my state, but for 
Ohio, Pennsylvania and Kentucky, but also for the security of 
energy for the United States.
    We are not weather-prone in that part of the country. As 
you see, the disruption we had from hurricanes and all that. So 
it would be a mid-Atlantic energy hub that protects and 
provides energy the country needs.
    We are going to be using coal for quite some time, not to 
the extent that we have, but we will use it and we need it, but 
you have to find different ways of using it. And if there is 
technology there, we can use it in a much cleaner fashion. 
Without the DOE, we don't go anywhere.
    Ms. Burnison. And I appreciate that, Senator.
    And I was not, obviously, part of the budget process, but I 
can commit to you that in my role at heading up the Office of 
Congressional and Intergovernmental Affairs that I will work 
with you and your office and I will make sure that we carry 
your views and your state's views back into the Department.
    Senator Manchin. Ms. White, we don't have any nuclear power 
stations in West Virginia and we have no nuclear sites for 
disposal either. We do have one 15-acre legacy site in 
Parkersburg and we would love to have you come and see how we 
can move forward on this because it is going to be a 
responsibility for, who knows, 100, maybe 1,000 years from now. 
They have been testing it every 10 years and they found it not 
to have any levels that were of, that affect the drinking 
water, but still, it is a legacy site.
    Right now, the DOE manages the site according to the site-
specific plan that requires annual inspections and evaluations. 
According to the DOE's own fact sheet the facility, the 
encapsulated materials, will remain potentially hazardous for 
thousands of years and the material that was placed there was 
zirconium and that was to produce metals. They were necessary 
for the construction of nuclear reactors used in the U.S. Navy. 
We have been a big supporter of all this.
    The prime example of the legacy site continues to pose a 
long-term risk. How can we manage this? Is it a possibility to 
ever get this property back into some type of productive use?
    Ms. White. I'm not familiar with the site of which you 
speak.
    Senator Manchin. Well, we are going to invite you to come 
visit.
    Ms. White. I know, I'd love to come visit.
    Senator Manchin. It is not that far away, you can do it.
    Ms. White. But you don't have any green chilis, so I don't 
know.
    [Laughter.]
    Senator Manchin. We have pepperoni rolls that will knock 
you dead.
    [Laughter.]
    Ms. White. So, I'd love to come visit the site and become 
more familiar with it, work with you and your staff to look at 
what some options might be.
    Senator Manchin. Well, just give me a little oversight, 
environmental management. What is your thought process on just 
the environmental management, whether it is the legacy site or 
there is a potential legacy site?
    Ms. White. Right.
    So, in general, as I mentioned, safety, that goes almost 
without saying. It's one part of a three-legged stool. You have 
to have cost, production and safety. It's very important.
    Also, decision-making, decisions need to be made timely and 
they also need to understand the long timelines involved in 
nuclear, as you rightly brought up, thousands of years.
    And they need to have a strong technical basis and a cost 
basis and they need to get----
    Senator Manchin. May I have a----
    Take Yucca Mountain--I am not from the West, but I have 
been to Nevada and I have been to the Yucca Mountain site.
    There had to be a time, time past, that someone thought 
that the geological formation, that it would be a proper place, 
it would be a safe place and we invested billions and billions 
of dollars to make that safe.
    So, someone has got to make a decision when products, when 
we start using nuclear, not just for our defense of our 
country, but for the commercial. And there has to be a way to 
contain and dispose of it, but not destroy the land that can't 
be used forever.
    So, with all these new products that we might be using, 
that is what I am saying, someone has to make that decision. 
How do we handle this?
    This property here which is a valuable piece of property, 
if it could be back in, could be put back into production. Will 
it ever be able to be put back into production? How many sites? 
How many pieces of property? How many things have we produced 
that we have taken off the market forever? Does that ever come 
into a decision or should it come in to the decision-making 
process?
    Ms. White. So, the decision-making process about the 
specific things you're talking about that comes through a 
regular----
    Senator Manchin. We are saying someone had to think that 
zirconium might have thousands of years of effect.
    Ms. White. Right.
    Senator Manchin. Nuclear waste might have consequences for 
thousands of years. Everything that we produce that we need, 
these are all, they produce energy that we need. But for some 
reason no one has thought about what the after effect and what 
generation pays the price and can we ever put anything back in 
production or can it be mitigated?
    Ms. White. So, Yucca Mountain is not within my purview.
    Senator Manchin. No, I am just using that as an example of 
what----
    Ms. White. Right.
    Senator Machin. I would like to ask you, as you are in your 
job, what do we do with Yucca Mountain? What can we use it for? 
We own it. We have invested into it. What could it be used for?
    Ms. White. And I'd love to speak with your staff about 
that.
    Senator Manchin. Well, if it was made to handle nuclear it 
should be able to handle about anything. We would be glad to 
dig up the zirconium and take it to Yucca Mountain to take care 
of zirconium if they don't want nuclear waste.
    Ms. White. I don't know about the specific site, Senator, 
I'm sorry.
    Senator Manchin. These are tough ones. We can't even solve 
the problems either, so don't worry. Just because you don't 
have an answer, we don't either, so, we are all in the same 
boat here.
    But someone has got to speak to these things somehow in the 
future, and it has been going on for far too long.
    Thank you so much for being here.
    Ms. White. Thank you.
    The Chairman. Thank you, Senator Manchin.
    Ms. White, what you have heard both from Senator Barrasso 
and with Senator Cantwell with her questioning about Hanford, 
there are members, there are Senators, who have issues that 
have been long-standing within their states. Of course, the 
Senators from Nevada and Yucca Mountain.
    Senator Manchin. Every time they come----
    The Chairman. ----consent-based. But it does, kind of, 
speak to some of the frustration.
    I think these are very difficult issues. These are very 
complicated issues. The cleanup at Hanford is just very, very 
difficult.
    But the issue that Senator Barrasso has raised about the 
uranium and being given assurances from one Secretary to 
another from Republican Administrations to Democrat 
Administrations and not feeling like there is an effort to work 
through these issues. And thus, I think the frustration that 
you heard with Senator Barrasso.
    But I do think that as new secretaries come and go and make 
promises, that they're going to do better and then those who 
are very closely involved with these issues don't see a 
positive outcome or don't see that result, that causes greater 
frustration and possibly contributing to just further delay in 
addressing some of these environmental issues.
    And I don't know that there is a magic formula to fix these 
other than hard work, commitment, resourcing it appropriately, 
but really sticking with some of these very long-term, 
complicated issues.
    So we have big things that we address here in the Energy 
Committee. There are big things that the Department of Energy 
faces on a daily basis, things that are important, not only 
from an environmental perspective, but from a safety 
perspective, from a jobs perspective and from an economic and 
energy security perspective.
    We appreciate your willingness to step up and take on some 
of the big issues and work with this Committee. My advice to 
those who agree to serve within the Administration is the 
closer that you can keep your connections and your relationship 
with members of Congress in addressing their concerns and being 
responsive, the easier it is to work through some of these 
difficult and long-standing issues that face our country.
    Again, thank you for your willingness to serve, and we will 
be working to move our nominees as quickly as we can out of the 
Committee.
    I have been frustrated because we had to send back some of 
our good folks at the end of the year, a process that happens 
here in the Senate. My intention is to try to get, whether it 
is Department of the Interior or Department of Energy, these 
vacancies filled as quickly as we can.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:09 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               [all]
</pre></body></html>
